American Samoa Department of Education Official Convicted by Federal Jury in District of Columbia of Witness Tampering and Obstruction of Justice
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Department of Justice
Office of Public Affairs
FOR IMMEDIATE RELEASE
Thursday, January 26, 2012
American Samoa Department of Education Official   Convicted by Federal Jury in District of Columbia of Witness Tampering and   Obstruction of Justice
WASHINGTON –   Paul Solofa, the director of the school lunch program for the government of the   U.S. Territory of American Samoa, was convicted today in relation to his efforts   to obstruct a federal grand jury and law enforcement investigation into a   bribery scheme, announced Assistant Attorney General Lanny A. Breuer of the   Justice Department’s Criminal Division.
After a   four-day trial, a federal jury in the District of Columbia found Solofa, 50,   guilty of one count of witness tampering and one count of obstruction of   justice.
According to   evidence presented at trial, in approximately early 2008, federal authorities   began conducting an investigation into allegations of cash bribes and kickbacks   paid by vendors to officials of the American Samoa government in connection with   the government’s purchase of school bus parts and services.
According to   the trial evidence, Solofa met on April 3, 2009, with a school bus parts vendor   who told Solofa that the FBI was interested in interviewing the vendor regarding   the bus parts investigation. Solofa, in a recorded meeting, allegedly told the   vendor, “They cannot do anything with cash. Nothing. They cannot do anything   with cash. They cannot track down you on cash. Because even if you say you gave   me cash I'll tell them ‘no.’ They cannot take your word on cash. Because that’s   hearsay. So you know, but the best thing for you to do is ‘nope, I never give   them any cash, I never’ – because that will open up the whole operation . . .   You get what I am saying. All you do is just tell them ‘no, yes, no, yes,’   period.”
In addition,   according to the evidence presented at trial, Solofa met on April 14, 2009, with   the same bus parts vendor, who told Solofa that a grand jury subpoena requiring   production of specific documents and records, some of which related to Solofa   and to the bus parts kickback scheme, would be issued shortly. After discussing   how to respond, Solofa told the vendor that, as for documents he did not want to   produce, “ [t]he only way to do it with those copies is burn it. That way, they   won’t see it, and you won’t worry that they might see it, you know. . . .  Just   burn it, and nobody has a copy.”
Solofa faces   a maximum penatly of 20 years in prison and a $250,000 fine on the witness   tampering charge and 10 years in prison and a $250,000 fine on the obstruction   of justice charge. Sentencing is scheduled for April 27, 2012.
This case is   being prosecuted by Principal Deputy Chief Raymond N. Hulser and Trial Attorneys   Timothy J. Kelly and Daniel A. Petalas of the Criminal Division’s Public   Integrity Section. The case is being investigated by the FBI in Hawaii; the   Office of the Inspector General for the U.S. Department of Education; and the   Office of the Inspector General for the U.S. Department of the   Interior.
12-117
###
Printable view
Last Modified: 02/02/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov